IN THE SUPREME COURT OF IOWA
No. 20-1342
Johnson County No. LACV080636
ORDER
JOHN ANDERSON,
Plaintiff-Appellant,
vs.
THE UNIVERSITY OF IOWA
and IOWA BOARD OF REGENTS,
Defendants-Appellees.
This matter comes before the court, Appel, Waterman, and McDermott, JJ., upon a
jurisdictional issue. The appellant filed an informational notice of appeal with the clerk of
this court on October 19, 2020, seeking review of the district court's October 12, 2020
order confirming the dismissal of his claims. On December 8, 2020, this court noted a
possible lack ofjurisdiction because the appellant had not filed a notice of appeal with the
clerk of the district court, and ordered the parties to file statements. On December 11,2020,
appellant filed a notice of appeal with the district court clerk, as well as a statement with
this court. Appellees filed a response.
An appeal is taken by filing a notice of appeal with the clerk of the district court
where the order or judgment was entered within the applicable time period. Iowa R. App.
P. 6.102(2). In most instances, failure to comply with this rule means the court lacks
jurisdiction to hear the appeal. Hills Bank & Trust Co. v, Converse, 772 N.W.2d 764, 771
(Iowa 2009). The court finds the 53-day delay between service of the informational notice
of appeal via the electronic filing system and the filing of the notice of appeal in district
court was not reasonable, and therefore the court lacks jurisdiction. See Evenson v.
Winnebago Indus., Inc., 922 N.W.2d 335,336-37 (Iowa 2019) (discussing cases regarding
reasonable time).
Upon consideration, the appeal is dismissed.

1 of 3

(S

E-FILED 2020 OCT 12 11:22 AM JOHNSON - CLERK OF DISTRICT COURT

IN THE IOWA DISTRICT COURT FOR JOHNSON COUNTY

JOHN WILLIAM ANDERSON
Plaintiffs),

CASE NO. 06521 LACV080636

vs.
ORDER
BOARD OF REGENTS STATE OF IOWA
UNIVERSITY OF IOWA

Dated: 10/12/2020

Defendant(s).
On this date, Plaintiffs Motion to Reconsider came before the undersigned for review. The Court
has reviewed the contents of the Motion, in which it appears Plaintiff is attempting to provide an
explanation for the basis (both factual and legal) of his claims in this matter. The Court is not
persuaded that its prior decision to dismiss Plaintiffs claims should be altered in any way. Plaintiffs
Motion to Reconsider is denied.
Clerk to notify.

1 of 2

August 2017

Ch 6, p.37

APPELLATE PROCEDURE
DIVISION XIV
FORMS

Rule 6.1401 Forms.
Rule 6.1401 — Form 1: Notice ofAppeal
IN TH£ 10WA DISTRICTCOURT
FOR
COUNTV

(Insert district court caption.)

2 C
{district court case number)

No.

H

cd

NOTICE OF APPEAL

D
O

u

V k ? J*f£ i /y

PH
PD

County, the derk of the supreme court and

To; 'Ihc derk of the district court for

■.a

^

gJ4

-a (

(insert names of unrepresentedparties and attorneys of record).

00

u-

O

us!
cd
Uj

u
o
Cl
o

Notice is given that
_________ (insert the names cf the parties who are taking the
appeal) appeal(s) to the Supreme Court of Iowa from the final order entered in this case on the
L y
day of
(C* "
20? Cs, and from al! adverse rulings and orders inhering therein.
*
Dated this

( *n

day of

,20

1S-J

/t(^
(signature of appellant or appellant s attorney)
Same, address. telephone number, fax number, and
e-mail address of appellant or appellants attorney.

CM
ON

H

o
o

CERTIFICATE OF SERVICE
day of
The undersigned certifies a copy of this notice of appeal was served on the
20_2£., upon the following persons and upon the clerk of the supreme court (list the names and addresses of the persons
below and indicate the manner vf servicef.

4>V
a
W
J

tsignature of person making service)
[Court Order October 31, 2008, effective January 1, 2009]

>■

l-J

<
’O

Z

c

cd

o
Jj

j

SIERRA BERGER
$ Af Commission Number 806552

‘Iw

lj

